OVEROBLIGATION OF ICE-MAN FUNDS

    Federal Aviation Administration

     Report Number: FI-2003-044
     Date Issued: June 12, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on FAA's Overobligation                   Date:    June 12, 2003
           of ICE-MAN Funds
           FI-2003-044

  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   Letko: x61496
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents our audit results on a Hotline complaint alleging that the
           Federal Aviation Administration (FAA) had improperly (1) deobligated valid
           Fiscal Year (FY) 2001 obligations on the Integrated Computing Environment
           Mainframe and Network (ICE-MAN) contracts to avoid detection of an
           Antideficiency Act violation, (2) used FY 2001 funds from its Facilities and
           Equipment (F&E) appropriation rather than the Operations appropriation to pay
           bills on the deobligated contracts, and (3) used FY 2002 funds to pay FY 2001
           obligations. Our audit objective was to determine whether the allegations were
           valid. Our audit scope and methodology are discussed in Exhibit A.

           INTRODUCTION
           In May 1997, on behalf of the Department of Transportation (DOT), FAA
           contracted for specific data processing services with the U.S. Department of
           Agriculture's (USDA) National Information Technology Center in Kansas City,
           Missouri. To obtain USDA data processing services for DOT customers, FAA
           uses the ICE-MAN contracts. One ICE-MAN requirement is to have USDA
           process financial data for DOT's Departmental Accounting and Financial
           Information System. FAA's Office of Acquisitions administers ICE-MAN
           contracts for DOT.

           Each year, before appropriations are made, FAA's Office of Acquisitions estimates
           the costs of ICE-MAN contracts and enters into formal agreements with
                                                          2

customers1.     For data processing services that benefit all Operating
Administrations, the Office of the Secretary is the customer. After entering into
an agreement with FAA, the Office of the Secretary enters into formal agreements
with the Operating Administrations to cover their fair share of the cost using their
own Operations appropriation. Upon approval of the agreements, the Operating
Administrations transfer funds to FAA. For FY 2001, ICE-MAN costs were about
$9.4 million.

RESULTS IN BRIEF
As of September 18, 2001, we found that FY 2001 obligations that FAA recorded
against ICE-MAN contracts exceeded available funds by about $850,000. At that
time, FAA's Office of Acquisitions initiated a series of actions to cover the
shortfall within the accounting records. Specifically,

       • From September 25 through September 30, 2001, FAA's Office of
         Acquisitions used about $526,000 from FAA's Operations appropriation
         rather than from ICE-MAN customers' appropriations to cover ICE-MAN
         obligations. FAA's Office of Acquisition also deobligated $324,000 from
         valid ICE-MAN contracts without notifying contractors to stop work. The
         General Accounting Office (GAO) guidance2 states:

                   Absent a valid reason, it is improper to deobligate funds solely to
                   'free them up' for new obligations. To do so risks violating the
                   Antideficiency Act.

       • To pay the bills from the ICE-MAN contracts that had been improperly
         deobligated, FAA's Office of Acquisitions recorded an obligation for
         $311,000, without a supporting obligation document, using funds from
         FAA's FY 2001 F&E appropriation. Using the F&E appropriation to pay
         obligations rightfully payable from the Operations appropriation was
         inappropriate.

       • Because FAA did not cancel the contracts, the contractors continued to
         perform the work and billed FAA $290,000 for their work on the
         deobligated contracts, of which about $30,000 inappropriately was paid
         from FAA's FY 2002 rather than its FY 2001 Operations appropriation.

FAA also used about $800,000 of FY 1999 funds designated for ICE-MAN
contracts that belonged to DOT Operating Administrations. FAA had no authority
1
    Customers are DOT organizations that use ICE-MAN data processing services.
2
    Principles of Federal Appropriations Law, GAO/OGC-92-13, Volume II, Chapter 7, Obligation of Appropriations.
                                                     3

to use those funds to offset its own obligations. According to GAO guidance3,
FAA's use of these excess funds could be an improper augmentation of its funds.

To correct this situation, we recommended that FAA record all valid FY 2001
ICE-MAN obligations against the ICE-MAN contracts, return funds to the proper
appropriation accounts, establish who should be held accountable for improper
deobligation and payment actions, and establish proper procedures to account for
ICE-MAN funds. In addition, because of the overobligation of funds, FAA needs
to determine whether a violation of the Antideficiency Act occurred.

FAA's Acting Chief Financial Officer agreed with our recommendations,
identified corrective actions taken or planned, and provided estimated completion
dates for planned actions. Actions taken or planned by FAA are adequate for four
of our six recommendations.

Regarding our recommendation to determine whether a reportable violation of the
Antideficiency Act occurred, FAA responded that after discussions with FAA's
Chief Counsel, it was determined that no reportable violation of the Act had
occurred. This reply is not responsive to the recommendation. FAA cannot
determine whether a violation occurred until it completes its review of obligations
recorded against the accounts as we recommended. These actions will not be done
until later this month. Therefore, FAA should complete its proposed actions in
response to our first two recommendations, and after that it should obtain a written
decision by its counsel on whether an antideficiency occurred. In doing so, FAA
should work with the DOT General Counsel and the DOT Assistant Secretary for
Budget and Programs/Chief Financial Officer. If an antideficiency did occur,
FAA should report it.

Concerning our recommendation on determining who was accountable for the
improper obligations, FAA's reply was not fully responsive. The actions taken by
FAA to reorganize the ICE-MAN program office and appoint a new program
manager, will help FAA avoid improper deobligations in the future. However, in
our opinion, given that improper obligations were made, FAA should identify the
individual(s) responsible. These recommendations will remain open until the
actions are completed.

BACKGROUND
DOT Order 2700.7C, Administrative Control of Funds, establishes policy and
prescribes a system for the administrative control of all funds in DOT. FAA
Order 2500.42C, Administrative Control of Funds, implements the policy and
3
 Principles of Federal Appropriations Law, GAO-01-179SP, Volume IV, Chapter 15, Acquisition and Provision of
Goods and Services.
                                           4

procedures in DOT Order 2700.7C. The DOT order requires that obligations be
recorded at the earliest possible time and without regard to the availability or
nonavailability of funds. The DOT order specifically states:

      . . . arbitrary deobligation action is taken at the risk of a future violation
      if subsequent payment or charges should disclose an overobligation.


RESULTS

Deobligation of ICE-MAN Contracts
We found that as of September 18, 2001, obligations that FAA recorded against
ICE-MAN contracts exceeded available funds by about $850,000. At that time,
FAA's Office of Acquisitions initiated a series of inappropriate actions to cover the
shortfall. For example,

   • On September 25, 2001, FAA's Office of Acquisitions transferred about
     $526,000 from its FY 2001 Operations appropriation to cover ICE-MAN
     contract obligations, and deobligated $80,000 from one contract.

   • On September 27, 2001, in a letter to FAA's Office of Financial
     Management, the FAA Director of Acquisitions stated:

            Unfortunately, accounting has identified year-end deficiencies on
            the ICE-MAN contract.            To avoid ICE-MAN becoming
            anti-deficient, it is necessary to deobligate . . . $214,000 from the
            ICE-MAN undelivered orders account. Please ensure that these
            funds are deobligated manually. . . .

   • On September 30, 2001, FAA deobligated $30,000 from another ICE-MAN
     contract, bringing the total deobligations to $324,000.

By adding $526,000 in additional money and deobligating $324,000, the $850,000
shortfall was covered in the accounting records as of September 30, 2001.
However, we reviewed contract files for the transactions that were deobligated and
found no valid reason for deobligating the $324,000. GAO provides clear
guidance on such actions:

     Absent a valid reason, it is improper to deobligate funds solely to 'free
     them up' for new obligations.         To do so risks violating the
     Antideficiency Act.
                                          5

DOT Order 2700.7C also addresses such actions:

     . . . arbitrary deobligation action is taken at the risk of a future violation
     if subsequent payment or charges should disclose an overobligation.

We found that FAA reduced valid FY 2001 obligations on the ICE-MAN
contracts, but it did not notify contractors to stop work. Accordingly, the
contractors continued to do their work. We found that subsequent to the FY 2001
deobligations, contractors continued to bill for their services and FAA paid those
bills, which clearly shows that the deobligation actions by FAA's Office of
Acquisitions were arbitrary and inappropriate.

On September 28, 2001, the FAA Office of Acquisitions set up an undelivered
order, without any supporting obligation documents, to use $311,000 from the
FY 2001 F&E appropriation to pay bills from the deobligated contracts. During
FY 2002, FAA made payments totaling about $290,000 on contracts for which
funds had been deobligated. We found that FAA paid about $180,000 using
FY 2001 F&E funds, about $80,000 using its FY 2001 Operations funds, and
about $30,000 using FY 2002 Operations funds. Use of F&E funds and FY 2002
Operations funds to pay for FY 2001 Operations appropriation obligations was
inappropriate.

FAA Used Funds Belonging to Other Operating Administrations
FAA also inappropriately used FY 1999 Operations funds designated for
ICE-MAN. On August 9, 2000, the former FAA Assistant Administrator for
Financial Services issued a memorandum to the FAA Management Board stating:

     The agency has an urgent need to recover as much unobligated balance
     from the FY 1999 Operations appropriation . . . as possible. . . . Most of
     these obligations will undoubtedly be found to be valid, but your
     assistance in identifying documents that can be deobligated is greatly
     appreciated.

In support of this initiative, FAA's Office of Acquisitions identified and
deobligated $1.3 million of FY 1999 obligations on the ICE-MAN contracts on
September 29, 2000. However, as mentioned earlier, funds for ICE-MAN
contracts come from the Operations appropriations based on formal agreements
with the individual Operating Administrations.           About $800,000 of the
$1.3 million belonged to Operating Administrations other than FAA, and FAA had
no authority to use those funds to offset its FY 1999 obligations. Concerning such
agreements, GAO guidance states:
                                        6

     Any excess . . . should be returned to the ordering agency. Retention of
     the excess amount by the performing agency is an improper
     augmentation of its funds.

We found that the $1.3 million was available because the USDA had provided
rebates to FAA on the ICE-MAN contracts, but the rebates were not returned to
the Operating Administrations. None of the rebate activities was recorded in the
accounting records. Notwithstanding significant rebates, we found no evidence
that any funds were returned to the Operating Administrations from FY 1999
through FY 2002.

RECOMMENDATIONS

We recommend that the Assistant Administrator for Financial Services, in
coordination and agreement with the FAA Chief Counsel:

1. Record all valid FY 2001 ICE-MAN contract obligations against the
   ICE-MAN contracts as of September 30, 2001, and return $311,000 to the
   FY 2001 F&E appropriation.

2. Reverse the $30,000 charges against the FY 2002 Operations appropriation and
   pay these charges with the proper FY 2001 appropriation.

3. Establish who should be held accountable for the improper deobligation and
   payment actions and take administrative action, if appropriate.

4. Remove the $800,000 of FY 1999 Operations funds from FAA's Operations
   appropriation and return the funds to the proper DOT Operating
   Administrations.

5. Require FAA's Office of Acquisitions to establish proper procedures to account
   for ICE-MAN funds and rebates by fiscal year, and return excess funds to the
   Operating Administrations prior to year-end for use before the funds expire for
   obligation purposes.

6. Request that the FAA Chief Counsel determine whether or not the
   circumstances discussed in this report create a reportable violation of the
   Antideficiency Act.

MANAGEMENT COMMENTS

A draft of this report was provided to the FAA Administrator on April 2, 2003.
We also discussed the draft report with FAA's Acting Chief Financial Officer
                                        7

(CFO) and DOT's Deputy CFO. We considered their comments in preparing the
final report. The FAA Acting CFO provided comments on May 13, 2003 (see
Appendix). He agreed with our recommendations and provided the following
comments.

Recommendation 1. Concur. We have reviewed the program obligations and
expenditures for FY 2001, and will return the $311,000 that was inappropriately
obligated to the ICE-MAN account by June 30, 2003.

Recommendation 2. Concur. We plan to complete this recommendation by
June 30, 2003.

Recommendation 3. Concur. Within the ICE-MAN program office, the
Information and Technology Division was reorganized and a new program
manager, fund certifier, and contracting officer have been appointed.

Recommendation 4. Concur. We will work with the Operating Administrations
to determine the reimbursable amounts and develop a methodology to return these
funds. The transfer of FY 1999 rebate will be completed by June 30, 2003.

Recommendation 5. Concur. The following procedural changes have been
instituted: (a) ICE-MAN has been formally established as a reimbursable account;
(b) rebates will be distributed through the accounting system; and (c) all rebates
will be identified by August 15 of each year.

Recommendation 6. Concur. After discussions with FAA's Chief Counsel, it
was determined that no reportable violation of the Antideficiency Act occurred in
FY 1999 or FY 2001.

OFFICE OF INSPECTOR GENERAL RESPONSE

We considered management comments and made changes to the final report as
appropriate to address their comments. FAA actions taken and planned for
Recommendations 1, 2, 4, and 5 are reasonable.

Regarding Recommendation 3, we recommended that FAA establish who should
be held accountable for the improper deobligation and payment actions and take
administrative action, if appropriate. FAA responded that within the ICE-MAN
program office, the Information and Technology Division was reorganized and a
new program manager, fund certifier, and contracting officer had been appointed.
While these actions will help FAA prevent improper deobligation and payment
actions in the future, FAA did not fully respond to our recommendation. Given
                                        8

that improper obligations were made, FAA should identify the individual(s)
responsible.

Regarding Recommendation 6, we recommended that the FAA Chief Counsel
determine whether the overobligation of ICE-MAN funds created a reportable
violation of the Antideficiency Act. The Acting FAA CFO responded that after
discussions with the FAA Chief Counsel, it was determined that no reportable
violations of the Antideficiency Act had occurred. This reply is not responsive to
our recommendation. FAA cannot determine whether a violation occurred until it
completes its review of obligations recorded against the accounts as we
recommended. These actions will not be done until later this month. Therefore,
FAA should complete is proposed actions in response to our first two
recommendations. After that, the FAA Chief Counsel should work with the DOT
General Counsel and the DOT Assistant Secretary for Budget and Programs/Chief
Financial Officer to determine whether an antideficiency occurred and provide a
written report. These recommendations will remain open until these actions are
completed.

ACTION REQUIRED

FAA actions taken and planned for Recommendations 1, 2, 4, and 5 are
reasonable, and no further response is necessary. However, in accordance with
DOT Order 8000.1C, we are requesting that FAA reconsider its position on
Recommendations 3 and 6 and provide the additional information requested within
30 days.

We appreciate the courtesies and cooperation of FAA representatives. If you have
questions concerning this report, please call Terry Letko or me at (202) 366-1496.

                                        #
                                       9


EXHIBIT A. SCOPE AND METHODOLOGY
We interviewed the FAA Information Technology Services' Contracting Officers,
the Contracting Officers' Technical Representatives, the funds certification
manager, and others in FAA's Office of Acquisitions in Washington, D.C.;
Atlantic City, New Jersey; and Oklahoma City, Oklahoma. We discussed
procedures regarding obligations and deobligations on contracts, and contract
procedures for matching invoices to obligation documents with the Accounting
Operations Division.

We reviewed the contract documents and accounting records to determine the
validity of deobligations totaling about $1.3 million of FY 1999 funds and
$324,000 of FY 2001 funds.

We matched ICE-MAN contract and accounting records to determine whether the
proper funds were used to pay invoices and whether the related invoices were
matched to the obligations in the accounting system. We also reviewed invoices
from FYs 1999, 2000, 2001, and 2002.

We identified provisions of relevant Federal laws and regulations. Specifically,
we reviewed sections of Principles of Federal Appropriations Law, Title 31,
United States Code (U.S.C.), Section 1341 and 1342, Limitation on Obligations
and Expenditures; Title 31, U.S.C., Section 1535, Economy Act; and Title 31,
U.S.C., Section 1553, Availability of Appropriations. We reviewed FAA and
DOT policy and procedures. Specifically, we reviewed FAA Order 2500.42C,
Administrative Control of Funds; Procurement Guidance T3.1.4, Contract
Authority and Procurement Guidance and T3.10.1, Contract Administration; and
DOT Order 2700.7C, Administrative Control of Funds.

We performed our audit from June 2002 through January 2003. The audit was
conducted in accordance with Government Auditing Standards prescribed by the
Comptroller General of the United States.
                           10


EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT
  THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


      Name                              Title

   Terrence Letko                Program Director
   Leonard Meade                 Project Manager
   Linda Toms                    Senior Auditor
                                                    Memorandum

Subject: INFORMATION: Draft Report on Contract                Date: May 13, 2003
         Obligations, Federal Aviation Administration


  From: Acting Assistant Administrator for Financial       Reply to
          Services and Chief Financial Officer             Attn. of:



    To: Assistant Inspector General for Financial and
          Information Technology Audits

          As requested in your memorandum dated April 2, we have reviewed the subject
          report and the Federal Aviation Administration’s (FAA) response to each
          recommendation is provided in the attachment. We further believe that this title is
          misleading and request that consideration be given to changing the title to
          “Integrated Computing Environment Mainframe and Network (ICE-MAN) Program
          Financial Management”.

          We appreciate the opportunity to comment on this report. Should you have
          questions or need further information, please contact Anthony Williams, Budget
          Policy Division, ABU-100. He can be reached at (202) 267-9000.



          John F. Hennigan


          Attachment
              Federal Aviation Administration’s Response to the
              Office of Inspector General’s (OIG) Draft Report on
             Contract Obligations, Federal Aviation Administration


OIG Recommendation 1: Record all valid fiscal year (FY) 2001 ICE-MAN
contract obligations against the ICE-MAN contracts as of September 30, 2001,
and return $311,000 to the FY 2001 Facilities and Equipment appropriation.

FAA Response: Concur. We have reviewed the program obligations and
expenditures for FY 2001, and will return the $311,000 that was inappropriately
obligated to the ICE-MAN account by June 30.

OIG Recommendation 2: Reverse the $30,000 charges against the FY 2002
Operations appropriation and pay these charges with the proper FY 2001
appropriation.

FAA Response: Concur. We plan to complete this recommendation by
June 30.

OIG Recommendation 3: Establish who should be held accountable for the
improper deobligation and payment actions and take administrative action, if
appropriate.

FAA Response: Concur. Within the ICE-MAN program office, we have
reorganized the Information and Technology Division and appointed a new
program manager, fund certifier, and contracting officer. These changes
satisfy the intent of the recommendation.

OIG Recommendation 4: Remove the $800,000 of FY 1999 Operations funds
from FAA's Operations appropriation and return the funds to the proper
Department of Transportation Operating Administrations.

FAA Response: Concur. We will work with the Operating Administrations (OAs)
to determine the reimbursable amounts and develop a methodology to return
these funds. The following is a list of our planned actions with their estimated
completion dates:

a. Identify all impacted OAs by April 30.
b. Identify, by OA, usage percentage of total for FY 2001 by May 16.
c. Notify OA of FY 1999 rebate amount, and request guidance on procedures to
   return funds by May 30.
d. Complete transfer of FY 1999 rebate in accounting system by June 30.
OIG Recommendation 5: Require FAA's Office of Acquisitions to establish
proper procedures to account for ICE-MAN funds and rebates by fiscal year, and
return excess funds to the Operating Administrations prior to year-end for use
before the funds expire for obligation purposes.

FAA Response: Concur. The following procedural changes have been or will
be instituted immediately:

a. Formally establish ICE-MAN as a reimbursable account.
b. Distribute rebates through the accounting system.
c. Identify all rebates by August 15 of each year.

OIG Recommendation 6: Request that the FAA Chief Counsel determine
whether or not the circumstances discussed in this report create a reportable
violation of the Antideficiency Act in FY 1999 or FY 2001.

FAA Response: Concur. After discussions with FAA’s Chief Counsel, it was
determined that no reportable violation of the Antideficiency Act occurred in
FY 1999 or FY 2001.
